                  National Archives and Records Administration
                  Office ofthe Inspector General
                                                                                8601 Adelphi Road, Suite 1300
                                                                                College Park, Maryland 20740

Date       September 30, 2008

To         Allen Weinstein, Archivist of the United States

From       Paul Brachfeld, Inspector General

Subject:   Management Letter 08-016: Security Response at A-I

           This memorandum is intended to ensure effective, tested security measures are in place to protect
           the safety and integrity of the National Archives building (A-I), staff and visitors in the heart of
           our nation's capital. These concerns are neither theoretical nor abstract, but grounded in direct
           observation of events that unfolded the morning of September 23, 2008 when security
           vulnerabilities were exploited allowing protesters to gain access to and remain in control of the
           southwest comer of the Archives building on Constitution Avenue. NARA's response to this
           illegal trespass and occupation (DC Code Section 22-302) demonstrated a lack of planning,
           preparation, coordination and training on the part of security personnel entrusted with the
           paramount duty of protecting NARA structures, persons and holdings. Based upon the defined
           "success" of the demonstrators, the potential for copy-cat actions exists with absolutely no
           assurance they will be as docile as this event. Therefore, it is essential security defects be
           addressed expeditiously.

           In an article published in the Baltimore Chronicle and Sentinel, one of the "Veterans for Peace"
           demonstrators (identified as Ellen Barfield) who participated in the self-described "Ledge-In"
           defines the mode of their ruse that allowed them unchallenged access to the building perimeter.
           Garbed as construction workers they circumvented the moat surrounding the building. Once
           secure, Ms. Barfield states "it was interesting that the Archives seemed to have no contact with
           any of the .. .law enforcement entities in DC even though it is a Federal Building." Per Ms.
           Barfield they were even able to reinforce their sundries by having a supporter surreptitiously
           smuggle water to them when their supplies ran low, despite the fact security had allegedly
           quarantined the area.




           Additionally, the protesters were allowed to set their protest time schedule of twenty-four hours
           and then were permitted to leave without arrest or consequence. This type of capitulation will
           only encourage further trespassing. As one of the protestors, Elliott Adams, has been quoted as
           saying "We considered staying longer this time but we are not prepared for longer than
           this...although we may be back again, soon."




                                       NARA's web site is http://www.nara.gov
All NARA staff, visitors and stakeholders should be concerned as to the events of September
  rd
23 , and their future implications at A-I and other NARA facilities including A-2 in College
Park, Md. It is imperative that responsible NARA officials take immediate steps to develop,
implement and test security measures addressing the vulnerabilities so clearly exposed and
exploited by a handful of protesters at A-I.




Paul Brachfeld
Inspector General




                               NARA's web site is http://www.nara.gov
